OIG Audit Report 09-15
Bureau of Alcohol, Tobacco, Firearms and Explosives Annual Financial Statement - Fiscal Year 2008
Audit Report 09-15
February 2009
Office of the Inspector General
Commentary and Summary
This audit report  contains the Annual Financial Statement of the Bureau of Alcohol, Tobacco,  Firearms and Explosives (ATF) for the fiscal years (FY) ended September 30, 2008,  and 2007. Under the direction of the  Office of the Inspector General (OIG), KPMG LLP performed the audit, which resulted  in an unqualified opinion on the FY 2008 financial statements.  An unqualified opinion means that the  financial statements present fairly, in all material respects, the financial  position and the results of the entity’s operations in conformity with U.S. generally  accepted accounting principles.  For FY  2007, ATF also received an unqualified opinion on its financial statements (OIG  Report No. 08-12).
KPMG LLP also issued reports on ATF’s internal  control over financial reporting and on compliance and other matters.  The auditors identified one significant  deficiency in their Independent Auditors’ Report on Internal Control over  Financial Reporting, which has been reported annually since FY 2004.  The significant deficiency relates to  weaknesses in the accounts payable process identified during the testing of  interim accounts payable balances.   No instances of non-compliance  with laws and regulations or other matters were identified during the audit.
The  OIG reviewed KPMG LLP’s reports and related documentation and made necessary  inquiries of its representatives.  Our review,  as differentiated from an audit in accordance with U.S. generally accepted  government auditing standards, was not intended to enable us to express, and we  do not express, an opinion on ATF’s financial statements, conclusions about the  effectiveness of internal control, conclusions on whether ATF’s financial  management systems substantially complied with the Federal Financial Management  Integrity Act of 1996, or conclusions on compliance with laws and  regulations.  KPMG LLP is responsible for  the attached auditors’ reports dated November 3, 2008, and the conclusions  expressed in the reports.  However, our  review disclosed no instances where KPMG LLP did not comply, in all material  respects, with U.S.  generally accepted government auditing standards.
Return to OIG Home Page